                            Office of the Inspector General

September 22, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


The Social Security Administration’s Procedures to Identify Representative Payees
Who Are Deceased (A-01-98-61009)


Attached is a copy of the subject final report. Our objective was to determine whether
the Social Security Administration identifies all cases in which a new representative
payee (Rep Payee) is needed when a former Rep Payee dies.

You may wish to comment on any further actions taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at (410) 965-
9700.




                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




      THE SOCIAL SECURITY
 ADMINISTRATION’S PROCEDURES
  TO IDENTIFY REPRESENTATIVE
   PAYEES WHO ARE DECEASED

   September 1999   A-01-98-61009




AUDIT REPORT

                 E X E C U TI V E S U M M AR Y 


OBJECTIVE

The objective of this audit was to determine whether the Social Security Administration
(SSA) identifies all cases in which a new representative payee (Rep Payee) is needed
when a former Rep Payee dies.

BACKGROUND

Some individuals are not able to manage or direct the management of their finances
because of their age or mental and/or physical impairments. For such people,
Congress provided for payment to be made through Rep Payees who receive and
manage the benefit payments of the beneficiaries/recipients. Section 205(r) of the
Social Security Act requires SSA to match State death records against SSA’s payment
records to identify and prevent erroneous payments after death. Also, the Code of
Federal Regulations (20 CFR 404.2050 and 416.650) requires SSA to select a new
Rep Payee if the present Rep Payee has died. The repository for adding, correcting,
and deleting death information received from SSA’s death record matching operation is
the Death Master File (DMF).

SSA’s data bases include Rep Payee information in the following files:

•	 The 1990 Omnibus Budget Reconciliation Act (Public Law 101-508) required SSA to
   develop a data base of Rep Payees and the individuals being served. To satisfy
   this requirement, SSA created the Master Representative Payee File (MRPF).

•	 SSA maintains the names and Social Security numbers (SSN) of Rep Payees on
   the Master Beneficiary Record (MBR) and the Supplemental Security Record (SSR),
   which are used by SSA to direct benefit payments to the proper individuals.

To conduct this review, we sampled and reviewed cases where Rep Payees had death
records on the DMF. We also sampled cases where Rep Payees on the MBR and SSR
were not also recorded to the MRPF.

RESULTS OF REVIEW

SSA’s procedures do not ensure that new Rep Payees are selected when former Rep
Payees have died. Since SSA does not identify all cases in which a Rep Payee has
died, benefit payments continue to be paid to deceased Rep Payees. Based on our
review, we estimate that 2,091 deceased Rep Payees received $17.33 million in


                                           i
Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental Security
Income (SSI) payments from the date of the Rep Payee’s death through June 1998 (the
date we began our review).

Since SSA was not aware that payments were made to these deceased Rep Payees,
SSA could not be sure that these payments were used for the sole benefit of the
intended beneficiaries or recipients. In this regard, there is a risk that the benefits have
been fraudulently or improperly used by individuals other than the beneficiaries or
recipients. For example, in one case we reviewed, the beneficiary was a long-term
patient in a hospital and his Rep Payee had been deceased for almost 2 years before
SSA learned of the Rep Payee’s death and appointed a new Rep Payee. In this case,
the executor of the deceased Rep Payee’s estate had continued to receive the
beneficiary’s checks for 22 months. Until we notified SSA staff of this case, $10,364 of
the beneficiary’s fund had not been accounted for by SSA and was not available to the
new Rep Payee for the beneficiary’s use. SSA needs to account for the funds paid to
deceased Rep Payees, so that the funds can be transferred to the new Rep Payee and
to ensure that the funds were properly used.

We also found several conditions that affected the completeness and accuracy of
SSA’s Rep Payee data files and adversely affected our ability to match the Rep Payee
files with the DMF. SSA will have these same difficulties if its files are not corrected
and completed prior to conducting similar matches.

•	 SSA has incorrect death information recorded on the DMF and the MBR. We found
   that an estimated 465 Rep Payees were recorded as deceased on the DMF and/or
   their own MBRs even though they were still alive. These Rep Payees had their own
   MBRs because they received OASDI benefits themselves at some time during their
   lives. With incorrect death information recorded to its files, SSA may incorrectly
   stop benefit payments. When this occurs, staff resources have to be expended to
   investigate the cases and correct the files. Also, customer service is damaged,
   especially when the same beneficiary/recipient is repeatedly asked to verify that he
   or she is still alive.

•	 SSA’s data files on Rep Payees contain numerous errors in the Rep Payees’ SSNs.
   We found that an estimated 2,606 Rep Payees are recorded on the MBR with
   incorrect SSNs and 13,875 Rep Payees are recorded on the SSR with incorrect
   SSNs. Incorrect data on SSA’s files compromise SSA’s ability to conduct computer
   matches.

•	 SSA’s MRPF is incomplete with regard to Rep Payees for SSI recipients. We
   estimate that 68,221 Rep Payees who were not included in the MRPF managed
   $355.03 million in benefit payments for SSI recipients during Calendar Year 1998.
   Since these Rep Payees are not included in the MRPF, SSA is not in compliance




                                             ii
   with the current law that requires SSA to maintain a data base of Rep Payees and
   the individuals being served. Also, these Rep Payees would be excluded from any
   data matches that include the MRPF.

RECOMMENDATIONS

We recommend that SSA:

•	 Routinely match the DMF against the MRPF to identify deceased Rep Payees and
   select new Rep Payees for all beneficiaries and/or recipients affected.

•	 Issue a memorandum that emphasizes the correct procedures to be performed by
   field office personnel to ensure that funds paid to deceased Rep Payees are
   accounted for and transferred to the new Rep Payees when replacing deceased
   Rep Payees. This memorandum should include instructions for referring cases
   where fraud is suspected.

•	 Identify and correct instances in which erroneous dates of death are contained on
   Rep Payee MBRs. These corrections should be made prior to updating the DMF by
   matching against dates of death contained on MBRs.

•	 Identify and correct instances where the SSNs of Rep Payees on the MBR and the
   SSR are erroneous. These corrections should be made prior to matching these files
   with the DMF.

•	 Implement an edit check to ensure that the Rep Payee SSN is updated on the MBR
   whenever a new Rep Payee’s name is added.

•	 Identify those individuals acting as Rep Payees for SSI recipients who are not
   included in the MRPF and ensure their inclusion.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations and
provided implementation dates for the planned corrective actions. (See Appendix A for
the full text of SSA’s comments to our draft report).




                                           iii
                         TAB L E O F C O N TE N TS


                                                                                                              Page


EXECUTIVE SUMMARY ........................................................................................ i


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW .......................................................................................... 4


    DECEASED OASDI REP PAYEES.................................................................... 5


         Payments Corrected for Five Deceased Rep Payees.................................. 5


         Funds Paid to 39 Deceased Rep Payees .................................................... 6


         Erroneous Death Information ....................................................................... 6


         Rep Payee SSNs on the MBR ..................................................................... 7


    DECEASED SSI REP PAYEES ......................................................................... 7


         Payments Corrected for 23 Deceased Rep Payees..................................... 8


         Funds Paid to 60 Deceased Rep Payees .................................................... 8


         Erroneous Death Information ....................................................................... 9


         Rep Payee SSNs on the SSR .................................................................... 10


    CONSISTENCY OF DATA BETWEEN MRPF AND SSR................................ 10


CONCLUSION AND RECOMMENDATIONS ....................................................... 12



APPENDICES
APPENDIX A - Agency Comments

APPENDIX B - Sampling Methodology, Old-Age, Survivors and Disability Insurance

APPENDIX C - Sampling Methodology, Supplemental Security Income

APPENDIX D - Sampling Methodology, Master Representative Payee File

             Completeness
APPENDIX E - Major Contributors to This Report
APPENDIX F - SSA Organizational Chart
                                I N TR O D U C TI O N


OBJECTIVE

The objective of this audit was to determine whether the Social Security Administration
(SSA) identifies all cases in which a new representative payee (Rep Payee) is needed
when a former Rep Payee dies.

BACKGROUND

Some individuals are not able to manage or direct the management of their finances
because of their age or mental and/or physical impairments. For such people,
Congress provided for payment to be made through Rep Payees who receive and
manage the benefit payments of the beneficiaries/recipients. SSA selects Rep Payees
for Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries or Supplemental
Security Income (SSI) recipients when representative payments would serve the
interest of the individual. A Rep Payee may be a person, agency, or organization.

SSA selects a new Rep Payee: (1) when it learns that the interests of the beneficiary
or recipient are not served by continuing payment to the present Rep Payee; (2) when
the present Rep Payee is no longer able to carry out the Rep Payee responsibilities; or
(3) if the present Rep Payee has died.1 Section 205(r) of the Social Security Act
requires SSA to match State death records against SSA payment records to identify
and prevent erroneous payments after death. The repository for adding, correcting,
and deleting death information received from the death record matching operation is
the Death Master File (DMF), which is housed in SSA’s Numident file.2 In addition to
receiving death information from State death records, SSA receives death reports from
other parties, such as funeral home directors, relatives, friends, neighbors, etc.

The 1990 Omnibus Budget Reconciliation Act (Public Law 101-508) requires SSA to
develop a data base of Rep Payees and the individuals being served. To satisfy this
requirement, SSA created the Master Representative Payee File (MRPF). The purpose
of the MRPF is to assist SSA in the Rep Payee selection process by enabling field
offices (FO) to more carefully screen applicants and to determine their suitability to
become Rep Payees. For example, the MRPF contains the names and Social Security
numbers (SSN) of Rep Payees whose responsibilities have been terminated because
of misuse of benefit payments. This information is designed to enable SSA to ensure

1
    See 20 Code of Federal Regulations 404.2050 and 416.650.
2
    The Numident is an electronic file of all processed Social Security number applications.


                                                      1

that such individuals are never selected as Rep Payees again. SSA also uses the
MRPF data for management information and workload projection purposes and to
prepare annual reports to Congress on Rep Payee activities. Data in the MRPF
includes:

•   the names, addresses, and SSNs of the Rep Payees who are providing services;
•	 the names, addresses, and SSNs of the beneficiaries and/or recipients for whom
   Rep Payees are providing services;
•	 dates and reasons for payee terminations (for example, death of payee,
   performance not acceptable, etc.); and
•   codes indicating the selection or non-selection of applicants as Rep Payees.


SCOPE AND METHODOLOGY

To accomplish our objective, we:

•   Reviewed applicable Federal laws, regulations, and program guidelines.

•	 Obtained from SSA a copy of DMF tapes that include the SSNs of deceased
   individuals as of July 1997. We also obtained monthly update tapes from SSA that
   include the SSNs of individuals added/deleted3 to the DMF from August 1997
                                                           4
   through March 1998 with the exception of October 1997.

•	 Randomly sampled and reviewed 100 cases from 5,352 OASDI beneficiary records
   with Rep Payees who were deceased per the DMF. These 5,352 records were
   identified through computer matching data from the DMF and a Master Beneficiary
   Record (MBR) extract provided by SSA. (See Appendix B for details of our
   sampling methodology.)

•	 Randomly sampled and reviewed 100 cases from 652 SSI recipient records with
   Rep Payees who were deceased per the DMF. These 652 records were identified
   through computer matching data from the DMF and a Supplemental Security Record
   (SSR) extract provided by SSA. (See Appendix C for details of our sampling
   methodology.)

•	 Randomly sampled and reviewed 100 cases from 115,628 SSR records where the
   recipients’ Rep Payees were on the SSR but not included in the MRPF. These

3
  Death information is constantly being added, corrected, and deleted as a result of death record
matching operations. Additionally, the DMF may contain erroneous death information. See SSA’s
Program Operations Manual System SM 00623.001.
4
 Our copy of SSA’s October 1997 update tape was unreadable and could not be used during this audit.
However, we expect the exclusion of this tape would minimally affect our results.


                                                   2

   115,628 records were identified through computer matching data from the MRPF
   and a SSR extract provided by SSA. (See Appendix D for details of our sampling
   methodology.)

•	 Consulted with SSA specialists who provided us with an explanation of the Rep
   Payee information on the SSR, MBR, and MRPF.

•	 Communicated with FO personnel responsible for the cases included in our review
   when necessary.

We conducted our audit between June and November 1998 in Boston, Massachusetts.
We reviewed SSA’s procedures for handling third-party death notices and for ensuring
that individuals with deceased Rep Payees received use of their funds. We conducted
our audit in accordance with generally accepted government auditing standards.




                                         3

                   R E S U L TS O F R E V I E W 


SSA’s procedures do not ensure that new Rep Payees are selected when former Rep
Payees have died. Since SSA does not identify all cases in which a Rep Payee has
died, benefit payments continue to be paid to deceased Rep Payees. Based on our
review, we estimate that 2,091 deceased Rep Payees received $17.33 million in OASDI
and SSI payments. These payments were calculated from the date of the Rep Payee’s
death through June 1998 (the date we began our audit). We reviewed and sampled
separately for OASDI and SSI Rep Payees but found that payments had been made to
deceased Rep Payees under both programs. Our OASDI and SSI program results are
presented separately within this report.

Since SSA was not aware that payments were made to these deceased Rep Payees,
SSA could not be sure that these payments were used for the sole benefit of the
intended beneficiaries or recipients. In this regard, there is a risk that the benefits have
been fraudulently or improperly used by individuals other than the beneficiaries or
recipients. For example, in one case we reviewed, the beneficiary was a long-term
patient in a hospital and his Rep Payee had been deceased for almost 2 years before
SSA learned of the Rep Payee’s death and appointed a new Rep Payee. In this case,
the executor of the deceased Rep Payee’s estate had continued to receive the
beneficiary’s checks each month for 22 months. Until we notified SSA staff of this case,
$10,364 of the beneficiary’s fund had not been accounted for by SSA and was not
available to the new Rep Payee for the beneficiary’s use. SSA needs to account for the
funds paid to deceased Rep Payees, so that the funds can be transferred to the new
Rep Payees and to ensure that the funds were properly used.

We also found several conditions that affected the completeness and accuracy of
SSA’s Rep Payee data files and our ability to match the Rep Payee files with the DMF.
SSA will have these same difficulties if its files are not corrected and completed prior to
conducting similar matches.

•	 SSA has incorrect death information recorded on the DMF and the MBR. We found
   that an estimated 465 Rep Payees were recorded as deceased on the DMF and/or
   their own MBRs even though they were still alive. These Rep Payees had their own
   MBRs because they received OASDI benefits themselves at some time during their
   lives. With incorrect death information recorded to its files, SSA may incorrectly
   stop benefit payments. When this occurs, staff resources have to be expended to
   investigate the cases and correct the files. Also, customer service is damaged,
   especially when the same beneficiary/recipient is repeatedly asked to verify that he
   or she is still alive.




                                             4

•	 SSA’s data files on Rep Payees contain numerous errors in the Rep Payees’ SSNs.
   We found that an estimated 2,606 Rep Payees were recorded on the MBR with
   incorrect SSNs and 13,875 Rep Payees were recorded on the SSR with incorrect
   SSNs. Incorrect data on SSA’s files compromises the results of conducting
   computer matches.

•	 SSA’s MRPF is incomplete with regard to Rep Payees for SSI recipients. We
   estimate that 68,221 Rep Payees who were not included in the MRPF managed
   $355.03 million in benefit payments for SSI recipients during Calendar Year
   (CY) 1998. Since these Rep Payees are not included in the MRPF, SSA is not
   monitoring them in compliance with the current law, and these Rep Payees will be
   excluded from any data matches that include the MRPF.

DECEASED OASDI REP PAYEES

We matched OASDI Rep Payees listed on the MBR against SSA’s DMF as of

March 1998 and identified 5,352 beneficiaries whose benefits were shown on the MBR

as being paid to individuals who had dates of death recorded on the DMF. We

randomly selected 100 of these 5,352 beneficiaries for review.

                                                            Of the 100 cases
       MBR Rep Payee/DMF Match Sample Results
                                                            reviewed, 5 Rep Payees’
                                                            payments were properly
                                                            handled; 39 Rep Payees
           Deceased -                 Erroneously
            Received                   Listed as            had died, but SSA
           Payments                    Deceased             continued to send
               39                          29
                                                            benefit payments;
                                                            29 Rep Payees were
                                                            determined to be
              Deceased -                                    erroneously listed as
              Payments        Incorrect
              Corrected         SSNs                        deceased on the DMF;
                  5              27                         and 27 Rep Payees had
                                                            incorrect SSNs on the
                                                            MBR.


Payments Corrected for Five Deceased Rep Payees

In 5 of the 100 cases reviewed, we found no problems with SSA’s handling of the
payments made to the deceased Rep Payees. In one of the cases, the beneficiary was
not in current pay status when the deceased Rep Payee was the active payee. In the
other four cases, benefit payments were sent to the deceased Rep Payees before the
new Rep Payees were selected; however, in all four cases, the payments were
returned to SSA, and the funds were then paid to the new Rep Payees.




                                              5

Funds Paid to 39 Deceased Rep Payees

From our sample of 100 OASDI Rep Payees, 39 deceased Rep Payees were sent
OASDI benefits totaling $219,894. On average, each deceased Rep Payee received
$5,638 in payments for 9.3 months. Projecting these results to the 5,352 OASDI
beneficiaries in our sample population, we estimate that 1,693 deceased Rep Payees
received $15,567,863 in OASDI payments from the date of the Rep Payees’ deaths
through June 1998.

We found instances where Rep Payees’ own benefits were promptly terminated, but
they continued to be paid as Rep Payees for an extended period of time. In one case,
we determined that a Rep Payee died on October 10, 1996, and his death was
recorded on the DMF on October 17, 1996. SSA promptly input the termination code to
this individual’s MBR, and no payments were paid after October 1996. However, SSA
did not stop making payments to this individual as a Rep Payee. We calculated that
this deceased Rep Payee had been paid $15,674 through June 1998.

Of the 39 deceased Rep Payees identified during our review, SSA has changed the
Rep Payee in 4 cases, but, as of June 1998, payments continued to be paid to
deceased Rep Payees for 35 of the cases. For the four cases where the Rep Payee
has been replaced, we contacted FO personnel to determine what action SSA took
regarding the funds paid to these deceased Rep Payees. For two of the four cases, FO
personnel ensured that the beneficiaries with deceased Rep Payees received use of
the funds to which they were entitled. In the other two cases, FO personnel were
unable to provide documentation as to whether the beneficiaries received the use of
the funds to which they were entitled. We requested that FO personnel review the
35 cases where action had not been taken and revisit the 2 cases lacking
documentation. These FO reviews will ensure that new Rep Payees are selected,
funds paid to deceased Rep Payees are used for the beneficiaries, and that cases with
indications of misuse of funds are referred to the Office of the Inspector General, Office
of Investigations (OI).

Erroneous Death Information

When we performed our match of the DMF and MBR, we found that 29 of 100 sampled
OASDI Rep Payees were erroneously listed on the DMF as deceased. However, at the
time of our review, SSA had corrected 11 of these and had deleted the erroneous death
information from the DMF. SSA staff informed us that these erroneous death records
were probably a result of mis-keying of death reports. For the remaining 18 cases, we
found indications on SSA’s records that the Rep Payees were not deceased. To
confirm this, we contacted the responsible FOs and asked them to determine whether
the Rep Payees were alive. FO personnel confirmed that all 18 Rep Payees were
alive. FO personnel told us they would delete the erroneous dates of death from these




                                            6

individuals’ records. Projecting these 18 cases to the 5,352 OASDI beneficiaries in our
sample population, we estimate that 388 OASDI Rep Payees are erroneously listed as
deceased on the DMF.

Of the 18 erroneous dates of death on the DMF, 15 were posted to the DMF on
January 10, 1998, and 3 were posted on January 17, 1998. We were able to determine
the cause of the erroneous death reports in 12 of the 18 cases. In the 12 cases where
we were able to trace the postings, erroneous dates of death were on the Rep Payees’
own MBRs. These incorrect dates of death were propagated to the DMF during routine
matching procedures. We were unable to determine the source of the erroneous dates
of death for the remaining six cases.

One example of an OASDI Rep Payee who was erroneously listed on the DMF as
deceased follows. This individual was born in 1960 and began receiving payments as
a dependent child in 1979 when her father became disabled. Benefit payments were
terminated in 1982 when she stopped attending college. The termination date was
erroneously entered in the death field on the MBR. This erroneous date of death was
then propagated to the DMF on January 10, 1998, when SSA performed a match and
found this date of death on her inactive MBR. In another example, an OASDI Rep
Payee was erroneously listed on the DMF and complained to the FO that she had to
verify that she was alive to SSA numerous times over the years.

Rep Payee SSNs on the MBR

In 27 of 100 cases in our review, the Rep Payees’ SSNs on the MBR were not updated
when new Rep Payees were selected. When information about the new Rep Payee
was added to the MBR, the new Rep Payee’s name was correctly added, but the Rep
Payee SSN field was not updated. On average, the incorrect Rep Payees’ SSNs had
been on the MBR for 36.3 months. Projecting these 27 cases to the 5,352 OASDI
beneficiaries in our sample population, we estimate that 2,606 Rep Payees are
recorded on the MBR with incorrect SSNs.

DECEASED SSI REP PAYEES

We matched SSI Rep Payees listed on the SSR against SSA’s DMF as of March 1998
and identified 652 recipients whose benefits were shown on the SSR as being paid to
individuals who had dates of death recorded on the DMF. We randomly selected
100 of these 652 recipients for review.




                                           7

                                                            Of the 100 cases
      SSR Rep Payee/DMF Match Sample Results
                                                            reviewed, 23 Rep Payees’
                                                            payments were properly
                                       Deceased -           handled; 60 Rep Payees
                                        Received
                                       Payments
                                                            had died but, SSA
        Deceased -
        Payments
                                           60               continued to send benefit
        Corrected                                           payments; 16 Rep Payees
           23                                               were determined to be
                                                            erroneously listed as
               Incorrect
                                                            deceased on the DMF;
                 SSN     Erroneously                        and 1 Rep Payee’s SSN
                   1      Listed as                         on the SSR was incorrect.
                          Deceased
                             16




Payments Corrected for 23 Deceased Rep Payees

In 23 of the 100 cases reviewed, we found no problems with SSA’s handling of the
payments made to the deceased Rep Payees.

•	 In 10 cases, the deceased Rep Payees were replaced less than 30 days after their
   deaths.

•	 In seven cases, the recipients were not in current pay status when the deceased
   payees were listed as Rep Payees.

•	 In five cases, benefit payments were made to deceased Rep Payees before new
   Rep Payees were selected. However, in all five cases, the payments were returned
   to SSA. In four of the five cases, payments were reissued to new Rep Payees. In
   the remaining case, the beneficiary was not entitled to the returned benefits and,
   hence, the payments were not reissued.

•	 In one case, benefit payments were paid to a deceased Rep Payee. However, prior
   to our review, SSA determined that the beneficiary was not entitled to the benefits
   paid and recorded the amount paid to the deceased Rep Payee as an overpayment.

Funds Paid to 60 Deceased Rep Payees

From our sample of 100 SSI Rep Payees, 60 deceased Rep Payees were sent SSI
payments totaling $253,434. On average, each deceased Rep Payee received
$4,223.90 in payments for 11.8 months. Projecting these results to the 652 SSI
recipients in our sample population, we estimate that 398 deceased Rep Payees
received $1,759,238 in SSI payments from the date of the Rep Payees’ deaths through
June 1998.



                                               8

Of the 60 deceased Rep Payees identified during our review, SSA has changed the
Rep Payee for 24 cases since our review began. However, as of June 1998, payments
were being paid to deceased Rep Payees for 30 cases and recipients were no longer
receiving payments in 6 cases. For the 24 cases where the Rep Payees have been
replaced, we contacted the FOs that handled the cases. For 13 of the 24 cases, we
found that SSA ensured that the recipients with deceased Rep Payees received use of
the funds to which they were entitled. In the other 11 cases, FO personnel were unable
to provide documentation as to whether recipients received the use of the funds paid to
deceased Rep Payees. We requested that FO personnel review the 30 cases where
action had not been taken and revisit the 11 cases that lacked documentation. These
FO reviews will ensure that new Rep Payees are selected, that funds paid to deceased
Rep Payees are used by the beneficiaries, and that cases with indications of misuse of
funds are referred to OI.

In one case where the FO conducted a review after we requested they account for the
funds paid to a Rep Payee who had died in March 1996, FO personnel found that the
recipient had received the funds. However, the FO also found that the SSI recipient
had inherited $21,000 from the deceased Rep Payee’s estate, resulting in the recipient
having excess resources when SSI payments were made. If SSA had processed the
change in Rep Payee and accounted for the funds when SSA received the Rep
Payee’s death information (April 1996), the $3,601.40 overpayment could have been
avoided.

Erroneous Death Information

When we performed our match of the DMF and SSR, we found that 16 Rep Payees

were erroneously listed on the DMF as deceased. However, at the time of our review,

SSA had corrected four of these records and deleted the erroneous death information

from the DMF.


For the remaining 12 cases, we found indications on SSA’s records that the Rep

Payees were not deceased. To confirm this, we contacted the FOs responsible for

each of the cases and asked them to determine whether the Rep Payees were alive.

FO personnel confirmed that all 12 Rep Payees were alive and told us they would

delete the erroneous dates of death from the DMF. Projecting these 12 cases to the

652 SSI recipients in our sample population, we estimate that 77 SSI Rep Payees are

erroneously listed as deceased on the DMF.


Of the 12 erroneous dates of death on the DMF, 4 were posted to the DMF on

January 10, 1998, and 5 were posted on January 17, 1998. We were able to determine

the cause of the erroneous death reports in 8 of the 12 cases. In all eight cases,

erroneous dates of death were on the Rep Payees’ own MBRs. These erroneous dates

of death were propagated to the DMF during routine matching procedures.





                                           9

Rep Payee SSNs on the SSR

In 1 of the 100 cases in our review, the Rep Payee’s SSN on the SSR was incorrect
and appeared to be a typographical input error.

CONSISTENCY OF DATA BETWEEN MRPF AND SSR

SSA’s MRPF does not contain a list of all Rep Payees for SSI recipients in compliance
with the 1990 Omnibus Budget Reconciliation Act. In conducting our review, we
matched SSI Rep Payees listed on the SSR against SSA’s MRPF and identified
115,628 individuals who were listed as Rep Payees on the SSR, but were not listed as
Rep Payees on the MRPF. We randomly selected 100 of these 115,628 Rep Payees
for review.

                                                       Of the 100 cases reviewed,
         MRPF/SSR Match Sample Results                 59 Rep Payees were receiving
                                                       payments; 9 Rep Payees
             Not in
                                                       previously received payments;
            MRPF -                                     16 Rep Payees never received
                                        Not in
           Receiving                                   payments as the recipients
           Payments                    MRPF - No
              59                        Longer         were not eligible for benefits;
                                       Receiving       12 did not match because the
                                       Payments
                                                       Rep Payees’ SSNs on the SSR
                                          9
                                                       contained typographical errors;
              Timing                    Not in         and 4 were not in the MRPF at
            Difference                 MRPF -          the time of sample selection,
             Between     In MRPF -      Never
             Extracts      SSN on     Received
                                                       but had been added to the
                 4          SSR       Payments         MRPF when we reviewed the
                          Incorrect      16
                             12
                                                       cases.


In 59 of the 100 cases sampled, the Rep Payees on the SSR were receiving payments
but were not listed in the MRPF as the Rep Payees for the recipients. These 59 Rep
Payees received $25,587 in benefit payments in June 1998. Projecting these results to
the 115,628 Rep Payees in our sample population, we estimate that 68,221 Rep
Payees who are not included in the MRPF received $29.58 million in benefit payments
in June 1998. Based on this projection, we nonstatistically estimate that these Rep
Payees received $355.03 million in CY 1998. Since these Rep Payees are not
included in the MRPF, SSA is not monitoring them in compliance with current law, and
these Rep Payees will be excluded from any data matches that include the MRPF.

In 12 of the 100 cases, the Rep Payees’ SSNs on the SSR contained typographical
errors, even though these Rep Payees were in the MRPF under their correct SSNs.
Projecting these results to the 115,628 Rep Payees in our sample population, we



                                                 10

estimate that 13,875 Rep Payees are recorded on the SSR with incorrect SSNs.
Incorrect data on SSA’s files compromises the results of conducting computer matches.




                                         11

  CONCLUSION AND RECOMMENDATIONS


SSA should ensure that benefit payments are not made to deceased Rep Payees. One
way to identify deceased Rep Payees would be to conduct routine computer matches
between the DMF and the MRPF. However, erroneous and incomplete data on SSA’s
files must be corrected, and FO staff must be instructed to handle these cases properly,
to ensure an accurate and efficient matching operation.

We recommend that SSA:

1. 	 Routinely match the DMF against the MRPF to identify deceased Rep Payees and
     select new Rep Payees for all beneficiaries and/or recipients affected.

2. 	 Issue a memorandum that emphasizes the correct procedures to be performed by
     FO personnel to ensure that funds paid to deceased Rep Payees are accounted for
     and transferred to the new Rep Payees when replacing deceased Rep Payees.
     This memorandum should include instructions for referring cases where fraud is
     suspected.

3. 	 Identify and correct instances in which erroneous dates of death are contained on
     Rep Payee MBRs. These corrections should be made prior to updating the DMF by
     matching against dates of death contained on MBRs.

4. 	 Identify and correct instances where the SSNs of Rep Payees on the MBR and the
     SSR are erroneous. These corrections should be made prior to matching these files
     with the DMF.

5. 	 Implement an edit check to ensure that the Rep Payee SSN is updated on the MBR
     whenever a new Rep Payee’s name is added.

6. 	 Identify those individuals acting as Rep Payees for SSI recipients who are not
     included in the MRPF and ensure their inclusion.

AGENCY COMMENTS

In response to our draft report, SSA agreed with all of our recommendations and
provided implementation dates for the planned corrective actions.




                                           12

APPENDICES

                             APPENDIX A


AG E N C Y C O M M E N TS

                                                                                   APPENDIX B


                       Sampling Methodology -

       Old-Age, Survivors and Disability Insurance


From the Social Security Administration (SSA), we obtained extracts from the Master
Beneficiary Record (MBR) of Old-Age, Survivors and Disability Insurance (OASDI)
beneficiaries in current pay status who had representative payees (Rep Payee). This
MBR extract contained 4.30 million records as of July 1998. We also obtained extracts
from the Death Master File1 (DMF) of all recorded deaths. We compared the Social
Security numbers (SSN) of Rep Payees on the MBR against SSNs in the DMF to obtain
a list of potentially deceased Rep Payees. We stratified this list for sampling purposes.
The first stratum consisted of 3,842 deceased Rep Payees listed in the DMF prior to
August 1997. The second stratum consisted of 1,510 deceased Rep Payees added to
the DMF between August 1997 and March 1998. For each case sampled, we
considered the case to be properly handled if SSA replaced the Rep Payee within
30 days of the Rep Payees’ death. Additionally, we considered the case to be properly
handled if the beneficiary was not in current pay status, or the benefit payments were
returned to SSA.

                                               Strata 1           Strata 2

                                             MBR Match          MBR Match

                                             with DMF as       with DMF from

              Stratum Name                      of 7/97          8/97 – 3/98             Total
    Population Size                                 3,842              1,510                5,352
    Sample Size                                        30                 70                  100
            Attribute Projections
    Sample Results – Deceased Rep                        8                 31                    39
    Payees Receiving OASDI Payments
                                                                                                   2
    Projection – Deceased Rep Payees                1,025                669               1,693
    Receiving OASDI Payments
    Projection Lower Limit                                                                  1,156

    Projection Upper Limit                                                                  2,230

    Sample Results – Incorrect Rep                      19                  8                  27

    Payee SSNs on the MBR
    Projection – Incorrect Rep Payee                2,433                173                2,606
    SSNs on the MBR
    Projection Lower Limit                                                                  2,035


1
  Our copy of the October 1997 update tape was unreadable and could not be used during this audit.
However, we expect the exclusion of this tape would minimally affect our results.
2
  Numbers do not add due to rounding.


                                                 B-1

                                              Strata 1            Strata 2
                                            MBR Match           MBR Match
                                            with DMF as        with DMF from
           Stratum Name                        of 7/97           8/97 – 3/98         Total
Projection Upper Limit                                                                  3,177
Sample Results – Erroneous Rep                          0                    18            18
Payee Deaths on the DMF
Projection – Erroneous Rep Payee                        0                   388          388
Deaths on the DMF
Projection Lower Limit                                                                   261
Projection Upper Limit                                                                   516
          Dollar Projection
Sample Results – OASDI Payments                $101,643            $118,251         $219,894
to Deceased Rep Payees
Projection – OASDI Payments to             $13,017,016           $2,550,847       $15,567,863
Deceased Rep Payees
Projection Lower Limit                                                             $8,236,580
Projection Upper Limit                                                            $22,899,147
Note: All projections were calculated at the 90-percent confidence level.




                                                B-2

                                                                        APPENDIX C


                        Sampling Methodology -

                    Supplemental Security Income


From the Social Security Administration, we obtained extracts from the Supplemental
Security Record (SSR) of recipients in current pay status who had Representative
Payees (Rep Payees). This SSR extract contained 1.65 million records as of
February 1998. We also obtained extracts from the Death Master File (DMF) of all
recorded deaths. We compared the Social Security numbers (SSN) of Rep Payees on
the SSR against the SSNs in the DMF to obtain a list of potentially deceased Rep
Payees. We stratified this list for sampling purposes. The first stratum consisted of
218 deceased Rep Payees who were listed on the DMF prior to August 1997. The
second stratum consisted of 434 deceased Rep Payees who were added to the DMF
between August 1997 and March 1998.

                                             Strata 1       Strata 2

                                           SSR Match      SSR Match

                                           with DMF as   with DMF from

                Stratum Name                  of 7/97      8/97 – 3/98       Total
Population Size                                   218             434            652
Sample Size                                        30              70            100
           Attribute Projections
Sample Results – Deceased Rep Payees               24              36             60

Receiving Supplemental Security Income
(SSI) Payments
Projection – Deceased Rep Payees                  174             223           3981
Receiving SSI Payments
Projection Lower Limit                                                           351
Projection Upper Limit                                                           444
Sample Results – Erroneous Deaths on                2              10             12

the DMF
Projection – Erroneous Deaths on the DMF           15              62             77

Projection Lower Limit
                                                           45
Projection Upper Limit
                                                          108
             Dollar Projection
Sample Results – SSI Benefits Paid to        $176,201         $77,233      $253,434

Deceased Rep Payees
Projection – SSI Benefits Paid to           $1,280,393       $478,845     $1,759,23
Deceased Rep Payees                                                                8
Projection Lower Limit                                                    $1,343,11
                                                                                   6
Projection Upper Limit                                                    $2,175,36
                                                                                   0

1
    Numbers do not add due to rounding.
Note: All projections were calculated at the 90-percent confidence level.
                                                                                   APPENDIX D

                       Sampling Methodology -
 Master Representative Payee File Completeness

From the Social Security Administration, we obtained extracts from the Supplemental
Security Record (SSR) of cases with recipients in current pay status who had
Representative Payees (Rep Payees). This SSR extract contained 1.65 million records
as of February 1998. We also obtained an extract of all Rep Payees included in the
Master Representative Payee File (MRPF). This MRPF extract contained 5.40 million
records as of February 1998. We matched the Rep Payees identified on the SSR with
the Rep Payees listed on the MRPF. We found 115,628 Rep Payees who were on the
SSR but were not on the MRPF. Using a simple random sample design, we randomly
selected 100 of the 115,628 cases for review.

     Population Size                                                                 115,628
     Sample Size                                                                         100
                          Attribute Projections
     Sample Results – Receiving Supplemental Security Income
                             59
     (SSI) Payments

     Projection – Receiving SSI Payments
                                             68,221
     Projection Lower Limit
                                                          58,152
     Projection Upper Limit
                                                          77,816
     Sample Results – Incorrect Rep Payee Social Security
                                12
     numbers (SSN) on SSR

     Projection – Incorrect Rep Payee SSNs on SSR
                                    13,875
     Projection Lower Limit
                                                           8,179
     Projection Upper Limit
                                                          21,639
                             Dollar Projection
     Sample Results – Receiving SSI Payments                                         $25,587

     (Based on June 1998 Benefit Payment Amount)
     Projection – Monthly SSI Payment Amount                                     $29,586,060

     Projection Lower Limit                                                      $24,974,642

     Projection Upper Limit                                                      $34,197,478

     Annual Payment Amount

     Calendar Year 1998 Payments ($29,586,060 in Projected
                     $355,032,720

     Monthly Payments X 12 months)
    Note: All projections were calculated at the 90-percent confidence level.

We also tested the completeness of the Old-Age, Survivors and Disability Insurance
Rep Payee data in the MRPF. In this regard, we matched the Master Beneficiary
Record (MBR) Rep Payee data against the MRPF and reviewed a sample of 100 cases
from the 205,353 records that appeared not to be included in the MRPF. Our review of
these sample cases did not find the same condition described above for SSI Rep
Payees. For the cases reviewed, we found that the MBR Rep Payee data only differed
with the MRPF due to timing differences between the dates our files were extracted.
                                                                            APPENDIX E


                   MAJOR CONTRIBUTORS


Office of the Inspector General

   Roger J. Normand, Director, Northern Program Audit Division

   Rona Rustigian, Deputy Director

   David Mazzola, Auditor

   Joseph LoVecchio, Auditor

   Kevin Joyce, Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-98-61009.
                        APPENDIX F



SSA ORGANIZATIONAL CHART

